CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Sonny Ray McCombs
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. MCCOMBS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, prepaid for deliveryto the following address.
Stuart W. Southerland
Attorney at Law
423 S. Boulder Ave., Ste. 300
Tulsa, OK 74103
(918) 596-5530
stuart.southerland@oscn.net
Counsel for Sonny Ray McCombs

Lucas DeDeus

September 24, 2021
SCP Tracking: Cleveland-313 N.E. Twenty-First Street-Cover White

